  Federal Communications Commission
       Office of Inspector General




FY 2003 Federal Information Security Management Act
          (FISMA) Independent Evaluation


                   September 22, 2003
                        TABLE OF CONTENTS

                                                                 Page


EXECUTIVE SUMMARY                                                  2


BACKGROUND                                                         3


OBJECTIVE                                                          3


SCOPE                                                              4


RESULTS OF FISCAL YEAR 2003 INDEPENDENT EVALUATIONS                5


APPENDIX A          OIG Responses to OMB M-03-19 GISRA
                    Reporting Questions                          A-1

APPENDIX B          Report on Follow-up Audit of Computer
                    Controls at the FCC Consumer Center (Audit
                    Report No. 01-AUD-07-30)                     B-1




                                                                        1
Executive Summary
The Federal Information Security Management Act (‘FISMA’ or ‘the Act’) was signed into law
on December 17, 2002 as Title III, “Information Security”, of the E- Government Act of 2002.
The Act permanently re-authorizes the framework established by the Government Information
Security Reform Act (GISRA), which expired in November 2002.

FISMA requires all federal agency heads to transmit to the Office of Management and Budget
(OMB) an annual agency report consisting of separate components prepared by the agency Chief
Information Officer (CIO) and the Office of Inspector General (IG). A key provision of the Act
also requires that the agency IG, or independent evaluators designated by the IG, perform an
annual independent evaluation of the agency’s information security program and practices. For
fiscal year (FY) 2003, the Federal Communications Commission’s (“Commission” or “FCC”) IG
engaged KPMG, LLP to conduct its independent evaluation.

The overall objective of the FISMA independent evaluation was to evaluate the effectiveness of
the Commission’s information security program. Generally, we found the Commission’s
information technology security to be effective. We used the National Institute of Standards and
Technology (NIST) “Self-Assessment Guide for Information Technology Systems (Self-
Assessment Guide 800-26)” as a basis for our methodology to assess the risk for each component
of the FCC’s program. As applicable, additional guidance was received from methodology
provided in the Federal Information Systems Control Audit Manual (FISCAM), as well as other
laws and directives related to management and protection of Federal information resources.

This year’s independent evaluation included an assessment of the agency’s Plan of Actions and
Milestones (POA&M) process and an aging study. The aging study was performed to identify
the length of time that POA&M weaknesses remain open and determine how effective the
agency is in implementing corrective actions. We noted that the FCC effectively monitors and
tracks all known weaknesses via the POA&M. However, only one-third of the corrective actions
are completed on track and 63% have experienced or are experiencing delays. Our study
identified that significant delays are encountered when implementing defined corrective actions.

OMB Memoranda M-03-19 dated August 6, 2003 entitled, “Reporting Instructions for the
Federal Information Security Management Act and Updated Guidance of Quarterly IT Security
Reporting” was followed to perform and report the results of our independent evaluation.
Appendix A provides the IG’s responses to OMB’s questions that address high-level
performance measures of the FCC’s information security program and practices. We plan to
issue the final detailed findings and recommendations from this year’s FISMA independent
evaluation by November 30, 2003.

FISMA also requires that IGs select an appropriate subset of business applications for
independent review. Our Follow-up Audit of Computer Controls at the FCC Consumer Center
and FY 2003 Audit of Revenue Accounting and Management Information System (RAMIS)
Application Controls satisfy this requirement. Appendix B forwards the final report on our
Follow-up Audit of Computer Controls at the FCC Consumer Center (Audit Report No. 01-
AUD-07-30). The audit of RAMIS application and security controls has been substantially
completed. A final report of detailed findings and recommendations is planned for November
30, 2003.


                                                                                               2
Background
The Federal Information Security Management Act (hereafter referred to as ‘FISMA’ or ‘the
Act’) was signed into law on December 17, 2002 as Title III, “Information Security” of the
Electronic Government Act of 2002. FISMA permanently re-authorizes the framework
established by the Government Information Security Reform Act (GISRA), which expired in
November 2002. The requirements of the Act apply to all federal agencies.

The Act requires each federal agency head to transmit to the Director of the Office of
Management and Budget (OMB) an annual report of high-level performance measures on its
information security program. The agency report consists of two separate components that are
prepared by the agency Chief Information Officer (CIO) and the Office of Inspector General
(IG). The CIO’s report provides the results of annual system and program reviews as well
progress in implementing the agency’s POA&Ms. The IG’s report summarizes the results of
independent evaluations performed during the fiscal year and the agency’s progress in
implementing Plans of Actions & Milestones (POA&M).

A key provision of the Act requires that the agency Office of Inspector General (IG), or
independent evaluators designated by the IG, perform an annual independent evaluation of the
agency’s information security program and practices. For fiscal year (FY) 2003, the Federal
Communications Commission’s (“the Commission” or “FCC”) IG engaged KPMG, LLP to
conduct the independent evaluation of the FCC’s information security program and practices.

OMB Memoranda M-03-19 dated August 6, 2003 and entitled, “Reporting Instructions for the
Federal Information Security Management Act and Updated Guidance of Quarterly IT Security
Reporting”, was followed to perform and report the results of our independent evaluation.

Evaluation Objective

The objectives of the current year’s FISMA independent evaluation and risk assessment were to:

1. Evaluate the effectiveness of the Commission’s information security program through the use
   of FISMA security assessment tools.

2. Prepare the annual submission in accordance with the reporting requirements mandated by
   OMB Memorandum M-03-19, dated August 6, 2003 and entitled, “Reporting Instructions for
   the Federal Information Security Management Act and Updated Guidance of quarterly IT
   Security Reporting.”

3. Follow-up on the findings identified during the FY 2001 and FY 2002 GISRA reviews that
   are documented in prior FCC IG audit reports (Report Nos. 01-AUD-11-43 and 02-AUD-02-
   06).

To accomplish the objectives of the review we specifically included the following tasks:

   1. Review documentation and interview communication, developers, and system
      management personnel to obtain an understanding of the IT structure and operational
      environment;


                                                                                               3
   2. Design and conduct tests appropriate for a FISMA review. For FY 2003 these tests
      included:
          a. A review of the Commission’s Plans of Action and Milestones, POA&Ms, to
             determine if POA&Ms include all findings.
          b. An aging of POA&M findings to determine the length of time vulnerabilities have
             remained open.
          c. An analysis of the FCC’s process for testing for vulnerabilities to determine if the
             FCC has a process to test for significant information security vulnerabilities on a
             systematic basis.
          d. An assessment of the FCC’s certification and accreditation (C&A) process.
          e. An aging of completed C&As to determine how long C&As operate under interim
             authority to operate at the FCC.

   3. Review the effectiveness of application security for a sample of applications;

   4. Classify and rank security risk areas and vulnerabilities;

   5. Make recommendations for specific improvements to security, as appropriate; and

   6. Identify areas for review in subsequent years.

Evaluation Scope

The scope of our independent evaluation included the security infrastructure managed by the
Office of Managing Director’s (OMD) Information Technology Center (ITC) and the Auctions
Automation Branch of the Commission’s Wireless Telecommunications Bureau (WTB).

Our procedures were designed to comply with applicable auditing standards and guidelines,
specifically the Generally Accepted Government Auditing Standards (GAGAS).

The evaluation methodology used was the National Institute of Standards and Technology
(NIST) “Self-Assessment Guide for Information Technology Systems (Self-Assessment Guide)”.
As applicable, the methodology prescribed by the Federal Information Security Control Audit
Manual (FISCAM) was used to assess management, operational, and technical controls during
our risk assessment, as well as the following laws and directives related to management and
protection of Federal information resources:

      Presidential Decision Directive (PDD) 63, entitled “Critical Infrastructure Protection.”
      PDD-67, entitled “Continuity of Operations Planning (COOP).”
      OMB Circular A-130, entitled “Management of Federal Information Resources,” as
       revised on November 30, 2000.
      OMB M-01-08, entitled “Guidance on Implementing the Government Information
       Security Reform Act,” dated January 16, 2001.
      OMB M-97-16, entitled “Information Technology Architectures.”
      OMB M-97-02, entitled “Funding Information Systems Investments.”
      FCC Instruction 1479.2, “Computer Security Program Directive.”
      NIST Special Publication 800-37, entitled “Guidelines for the Security Certification and
       Accreditation of Federal Information Technology Systems”, October 2002 (DRAFT).


                                                                                                  4
FISMA also requires that IGs select an appropriate subset of business applications for
independent review. Our Follow-up Audit of Computer Controls at the FCC Consumer Center
and FY 2003 Audit of Revenue Accounting and Management Information System (RAMIS)
Application Controls satisfy this requirement. The report on the results of the Consumer Center
follow-up audit is included with this report as Appendix B. The audit of RAMIS application and
security controls has been substantially completed. A final report of detailed findings and
recommendations is planned for November 30, 2003.


Results of FY2003 IG Independent Evaluations
The FCC continues to make progress in strengthening its information security program. In the
current fiscal year the FCC’s Computer Security Program revised its methodology for certifying
and accrediting its major applications and general support systems. The revised methodology is
designed to more effectively identify and address risks and ensure the security of resources in the
operational environment. Specific accomplishments in the current fiscal year include the
following:

   Security tests and evaluation (ST&Es) were re-performed for 53% of the agency’s major
    applications and general support systems.

   Eight (8) systems were authorized for processing following certification and accreditation.
    At the close of the prior year none of the Commission’s systems had been certified and
    accredited.

While these efforts demonstrate the Commission’s commitment to information security, the lack
of an IT Continuity of Operation Plan (COOP) represents a risk to the security posture of the
agency. Completion of the overall ITC COOP, which is in draft, will further strengthen the
FCC’s information security program. The FCC has contracted an outside vendor to assist with
the development of the plan, which will address all major applications and general support
systems. However, the plan is significantly behind schedule.

Additional observations of the Commission’s information security program identified during
FY2003 IG independent evaluations are discussed below. Some observations are specific to the
overall security program, while others address specific systems and information resources.

FY2003 FISMA Independent Evaluation and Risk Assessment
The IG has prepared responses to OMB’s questions that report upon high-level performance
measures of the Commission’s information security program and practices. The responses are
based upon the results of our FY 2003 independent evaluation. Some questions were not
necessarily specific to the agency’s information security program addressed by the scope of our
audit. In these cases, we have relied upon information provided by the appropriate agency
bureaus and offices. The IG accepted the information provided without performing further
validation. Appendix A to this report provides the IG’s annual submission of responses to OMB
questions in the required format.

Our current year FISMA independent evaluation of the FCC’s information security program will
result in a detailed report that will (1) identify and rank the critical security risk factors, and (2)
provide observations and recommendations for improvements to the agency’s information
security program, if any. The assessment is substantially complete and the final report is
                                                                                                        5
expected to be issued by November 30, 2003.

Included as a component of the FY2003 independent evaluation was an evaluation of the
agency’s POA&M process and an aging study. The aging study was performed to identify the
length of time that POA&M weaknesses remain open and how effective the agency is in
implementing corrective actions for identified deficiencies. Included in the scope of the aging
study were current fiscal year and all prior year quarterly POA&Ms issued by the FCC. On a
positive note, the Commission has corrected last year’s Government Information Security
Reform Act (GISRA) independent evaluation finding that reported that not all known
weaknesses were included in the agency POA&Ms. Additionally, FCC management has
appropriately outlined corrective actions for remediation of each weakness reported in the
POA&Ms.

While FCC management continues to effectively monitor and track the progress of the corrective
actions planned for all known security weaknesses, the results of our aging study indicate that the
timely remediation of weaknesses should be improved upon. The summary of our aging study is
provided in the following table:


                                  Summary of POA&M Aging Study
                                                   # Weaknesses          % Weaknesses
          Total Number of Weakness
                                                        48                   100%
          Reported by Agency POA&Ms
             Number of Corrective Actions
                                                        16                    33%
             Completed On Time
             Number of Corrective Actions
                                                        10                    21%
             Delayed and Completed
             Number of Corrective Actions
             that are On-going and On-track              2                     4%
             for Remediation
             Number of Corrective Actions
                                                        20                    42%
             Delayed and Not Completed

                 Delays Encountered                # Weaknesses          % Weaknesses
                     1-3 months                         4                   13%
                    6 – 12 months                      13                   43%
                   13 – 18 months                      10                   33%
                   19 – 24 months                       1                    3%
                   Over 24 months                       2                    7%

As indicated above, very few corrective actions designed to correct security weaknesses are
completed on track. Our study identified that significant delays are encountered when
implementing defined corrective actions. In total, 48 weaknesses have been reported by the
agency POA&Ms. Corrective actions have been reported as completed on time for 16 (33%)of
reported weaknesses and 2 (4%) were reported as on track for completion. Of the total security
weaknesses for which POA&Ms have been developed, corrective actions for 30 (63%) have
experienced or are experiencing delays. Implementation of planned corrective actions were
delayed between 1 and 3 months for 4 (13%) of the identified weaknesses; 13 (43%) were
delayed between 6 and 12 months; 10 (33%) were delayed between 13 and 18 months; and 3
(10%) were delayed between 19 and 24 months.


                                                                                                  6
Follow-up Audit on Computer Controls as the FCC Consumer Center
We performed a follow-up audit on Audit Report No. 00-AUD-01-12 dated June 21, 2001
entitled “Report on Audit of Computer Controls at the FCC National Call Center.” The original
report noted that significant technical control and internal control improvements could be made
to improve the overall security posture of the Consumer Center (formerly known as the National
Call Center). The original report contained one hundred three (103) specific findings.

The objective of our recent follow-up audit was to determine the status of sixty-six (66) of the
original one hundred three (103) conditions. Specifically excluded were conditions from the
original audit related to physical security and other conditions determined by the IG to be outside
the scope of the audit. The guideline for performing this audit was the Federal Information
System Control Audit Manual (FISCAM). Additional guidance was received from the National
Institute of Standards and Technology (NIST) and other laws and directives related to
management and protection of Federal information resources including the FCC’s “Computer
Security Program Directive” (FCC Instruction 1479.2).

Of the sixty-six (66) conditions that were reviewed, the audit identified twenty-one (21)
conditions with an ‘open’ status, forty-five (45) with a ‘closed’ status, and four (4) new control
weaknesses. Represented in the open conditions were twenty (20) that had been reported as
resolved by FCC management prior to the audit. From our review we ascertained that some of
these conditions had to be re-opened for reasons including the degradation of security controls
after initial corrective actions were taken, introduction of new hardware which may not have
been properly configured, or subsequent changes made by personnel with administrative and
maintenance duties. As we conducted the follow-up audit and identified open conditions, FCC
management took proactive measures to initiate resolution of findings that remained open.

The final report (Audit Report No. 01-AUD-07-30) issued from the follow-up audit is attached
as Appendix B to this submission.

FY2003 Audit of RAMIS Application Controls
In the current fiscal year, we initiated an audit of the application and security controls over the
Commission’s RAMIS application. RAMIS is the Commission’s internal revenue management
system that supports application and regulatory fee accounting, spectrum auction loan portfolio
management, accounting for auction proceeds, accounting for enforcement actions, and other
accounts receivable.

The objective of this audit was to determine the extent and effectiveness of RAMIS application
and security controls. The audit has been substantially completed and is in progress. During the
audit we noted several positive observations as summarized below:

      The FCC’s Computer Security Program office conducted a physical security review of the
       contractor’s facility. In response to observations of security controls at the facility, FCC
       management took appropriate action to improve the security of the RAMIS production
       and test servers.

      No vulnerabilities were identified during a limited external penetration testing of the
       application and related network devices included in the scope the assessment.

      RAMIS passwords are being encrypted.

                                                                                                      7
      Strong root passwords are in use on the production server and the administrative
       workstation.

The final report will include and discuss weaknesses in the areas of audit trails, user account and
password management, segregation of duties, and contractor oversight. The details of weakness
identified and corresponding recommendations will be released in the final audit report expected
to be issued by November 30, 2003.

FCC’s timely implementation of corrective actions to remediate the weaknesses identified by our
FY 2003 independent evaluations and previous audits and special reviews will increase the
effectiveness of the agency’s information security program and practices. As prescribed by
OMB Memoranda M-03-19 dated August 6, 2003 and entitled, “Reporting Instructions for the
Federal Information Security Management Act and Updated Guidance of Quarterly IT Security
Reporting”, POA&Ms for each vulnerability identified should be developed with milestones,
completion dates, and budget resources required to implement corrective actions. Finally the
agency should continue to actively report on and monitor the correction of vulnerabilities
through the POA&M process.




                                                                                                  8
                    APPENDIX A




FY 2003 Federal Information Security Management Act
          (FISMA) Independent Evaluation




Federal Communications Commission - Office of Inspector General

  Responses to OMB Memorandum M-03-19 FY2003 FISMA
                   Reporting Questions
A.1. Identify the agency’s total IT security spending and each individual major operating division or bureau’s IT security spending
as found in the agency’s FY03 budget enacted. This should include critical infrastructure protection costs that apply to the
protection of government operations and assets. Do not include funding for critical infrastructure protection pertaining to lead
agency responsibilities such as outreach to industry and the public.
                                                                                               FY03 IT Security Spending         ($
Bureau Name                                                                                            in thousands)
Federal Communications Commission (FCC)                                                                  $4,100
Agency Total                                                                                             $4,100
A.2a. Identify the total number of programs and systems in the agency, the total number of systems and programs reviewed by the
program officials and CIOs in FY03, the total number of contractor operations or facilities, and the number of contractor
operations or facilities reviewed in FY03. Additionally, IGs shall also identify the total number of programs, systems, and
contractor operations or facilities that they evaluated in FY03.


                                                                                                                           FY03 Contractor
                                                                          FY03 Programs           FY03 Systems          Operations or Facilities
                                                                        Total  Number   Total               Number   Total            Number
Bureau Name                                                             Number Reviewed Number              Reviewed Number *         Reviewed
Office of the Inspector General                                                 1           1          19          2              6              1


Office of the Managing Director                                                 1           1          19          19             6              0
Agency Total                                                                    1           1          19          19             6              0


b. For operations and assets under their control, have agency
program officials and the agency CIO used appropriate methods
(e.g., audits or inspections) to ensure that contractor provided
services or services provided by another agency for their
program and systems are adequately secure and meet the
requirements of FISMA, OMB policy and NIST guidelines,
national security policy, and agency policy?                                    Yes               X               No
c. If yes, what methods are used? If no, please explain why.            The FCC Computer Security Officer (CSO) has performed a FISMA
                                                                        program review of the Office of the Managing Director's (OMD)
                                                                        Information Technology Center (ITC) using the NIST Self-
                                                                        Assessment Guide.
d. Did the agency use the NIST self-assessment guide to
conduct its reviews?                                                             Yes              X                 No
e. If the agency did not use the NIST self-assessment guide and
instead used an agency developed methodology, please confirm
that all elements of the NIST guide were addressed in the agency
methodology.                                                                     Yes             N/A                No
* - Total based on external contract entities that process FCC data at an offsite location. This total includes Digital Systems Group, Mellon
Bank, JP Morgan/Chase Bank, Colsen Bank, The National Finance Center, and The National Business Center.
A.3. Identify all material weakness in policies, procedures, or practices as identified and required to be reported under existing
law in FY03. Identify the number of material weaknesses repeated from FY02, describe each material weakness, and indicate
whether POA&Ms have been developed for all of the material weaknesses.
                                                                                FY03 Material Weaknesses
                                                                    Total Number                                          POA&Ms
                                                          Total     Repeated from Identify and Describe Each Material    developed?
Bureau Name                                              Number         FY02                   Weakness                     Y/N
Federal Communications Commission                               3                3 Lack of compliance with OMB                Y
                                                                                   Circular A-130 Requirement for a
                                                                                   Comprehensive Security Plan.

                                                                                   Inadequacies and Inconsistencies in
                                                                                   the Mainframe and Network and
                                                                                   Network Access Request Process.

                                                                                   The FCC does not possess an
                                                                                   Information Technology Center (ITC)
                                                                                   Contingency or Disaster Recovery
                                                                                   Plan.


Agency Total                                                    3            3

Sources: Report on the Federal Communications Commission Fiscal Year 2001 Financial Statement Audit, April 30, 2002. Report on the
Federal Communications Commission Fiscal Year 2002 Financial Statements Audit, January 31, 2003
A.4. This question is for IGs only. Please assess whether the
agency has developed, implemented, and is managing an
agency-wide plan of action and milestone process that meets
the criteria below. Where appropriate, please include
additional explanation in the column next to each criteria.   Yes                                          No

Agency program officials develop, implement, and manage
POA&Ms for every system that they own and operate (systems
that support their programs) that has an IT security weakness.         Yes
Agency program officials report to the CIO on a regular basis (at
least quarterly) on their remediation progress.                        Yes
Agency CIO develops, implements, and manages POA&Ms for
every system that they own and operate (systems that support
their programs) that has an IT security weakness.                      Yes
The agency CIO centrally tracks and maintains all POA&M
activities on at least a quarterly basis.                              Yes




                                                                                                           No - The FCC's OMD has
                                                                                                           established responsibility for audit
                                                                                                           follow-up within the agency's
                                                                                                           Performance Evaluation and
                                                                                                           Records Management (PERM)
                                                                                                           division under OMB Circular A-50
                                                                                                           guidelines. Treating the POA&M
                                                                                                           as the IG tool for tracking IT
                                                                                                           security findings would create
                                                                                                           parallel systems that duplicate the
                                                                                                           same function. FCC-OIG
                                                                                                           submitted comments on the draft
                                                                                                           FY03 FISMA guidelines to OMB
                                                                                                           by e-mail. In the e-mail, FCC-OIG
                                                                                                           noted this long-standing practice
                                                                                                           of the Commission and requested
                                                                                                           of OMB that security guidance
The POA&M is the authoritative agency and IG management tool                                               allow flexibility for other offices
to identify and monitor agency actions for correcting information                                          within an agency to be the
and IT security weaknesses.                                                                                authority for managing IT findings.



                                                                        Yes - FY2004 business cases
                                                                        identified the anticipated
                                                                        spending on IT security,
                                                                        including the correction of
                                                                        identified weaknesses as well
                                                                        as other IT-security costs.
                                                                        Beginning with FY2005, in
                                                                        accordance with FISMA
System-level POA&Ms are tied directly to the system budget              POA&M guidelines, agency
request through the IT business case as required in OMB budget POA&Ms will include the
guidance (Circular A-11) to tie the justification for IT security funds amount of funding resources
to the budget process.                                                  identified in IT business cases.
A.4. This question is for IGs only. Please assess whether the
agency has developed, implemented, and is managing an
agency-wide plan of action and milestone process that meets
the criteria below. Where appropriate, please include
additional explanation in the column next to each criteria.   Yes   No


                                                                    No - Weakness identified during
                                                                    IG audits are incorporated into the
                                                                    agency POA&Ms however,
                                                                    quarterly POA&Ms where not
Agency IGs are an integral part of the POA&M process and have       distributed to the FCC IG during
access to agency POA&Ms.                                            the fiscal year.


The agency's POA&M process represents a prioritization of           No - Agency POA&Ms are not
agency IT security weaknesses that ensures that significant IT      being prioritized to identify
security weaknesses are addressed in a timely manner and            significant IT security
receive, where necessary, appropriate resources.                    weaknesses.
B.1. Identify and describe any specific steps taken by the The FCC Chairman has specifically directed the agency Chief Information Officer (CIO) to appoint
agency head to clearly and unambiguously set forth         the CSO to act as the single point of contact for implementing the Security Act provisions and
FISMA's responsibilities and authorities for the agency assessing compliance at all levels of the agency. While program officials are responsible for
CIO and program officials. Specifically how are such       specific missions within the Bureau of Office, the CIO has been directed to centrally manage IT
steps implemented and enforced?                            security for the agency. This mandate has been implemented through the assignment of a CSO
                                                           and the development of a Computer Security Program Plan, which when completed will supplement
                                                           the Information Technology Center Strategic Plan. The CSO is also responsible for developing and
                                                           maintaining the system security plan for each major application and general support system to
                                                           support each FCC Bureau and Office.


B.2. Can a major operating component of the agency             No - We noted during our audit of the Auctions IT capital investment practices, beginning with the
make an IT investment decision without review by and           FY 2003 Auctions budget request, the FCC began managing the Auctions cost budget development
concurrence of the agency CIO?                                 process in a similar fashion to the overall appropriated budget process for the agency. In July of
                                                               2002, the FCC finalized its Information Technology (IT) Strategic Plan. This plan provides a high-
                                                               level framework for the Commission's IT capital investment process.


B.3. How does the head of the agency ensure that the           The FCC Systems Development Life Cycle (SDLC) provides specific activities and tasks that must
agency’s information security plan is practiced                be followed in managing medium to large-scale systems. The SDLC process was modified to
throughout the life cycle of each agency system?               specifically identify security controls and processes to be addressed at each stage of the SDLC,
                                                               including system security plan development, security test and evaluation, and certification and
                                                               accreditation.


B.4. During the reporting period, did the agency head        During FY 2003 the FCC CSO performed a FISMA self-assessment review of the FCC ITC. This
take any specific and direct actions to oversee the          review focused on the managerial, operational, and technical aspects of the FCC's information
performance of 1) agency program officials and 2) the        technology security.
CIO to verify that such officials are ensuring that security
plans are up-to-date and practiced throughout the
lifecycle of each system?


B.5. Has the agency integrated its information and             For the Commission's information technology resources, physical and operational security are
information technology security program with its critical      integrated and centrally managed under a single program. The Director of the ITC is designated as
infrastructure protection responsibilities, and other          the Commission's CIO. The CIO is responsible for establishing the agency's computer security
security programs (e.g., continuity of operations, and         program inclusive of network and application security plans, continuity of operations/disaster
physical and operational security)?                            recovery plans, and incident handling procedures, as well as authorizing systems to operate.


B.6. Does the agency have separate staffs devoted to           The FCC is an independent agency of the United States Federal Government and reports directly to
other security programs, are such programs under the           congress. Within this agency is the ITC, which supports the Information Technology related needs
authority of different agency officials, if so what specific   its mission and employees. A sub-department of the ITC is the Computer Security Program (CSP),
efforts have been taken by the agency head or other            which provides an agency-wide Information Technology security function for the entire agency. The
officials to eliminate unnecessary duplication of              CSO is responsible for the development, administration, and oversight of the Commission's IT
overhead costs and ensure that policies and procedures         security programs. Among the CSO's duties is developing and reviewing general support syste and
are consistent and complimentary across the various            major application security plans, Continuity of Operations Plan (COOP) and contigency plans, and
programs and disciplines?                                      incident handling procedures, as well as assisting the FCC bureaus and offices with IT system
                                                               security program development and administration. Oversight of physical security of the
                                                               Commission has been assigned to the Commission's Security Officer. The Security Officer is
                                                               responsible for agency security operations including physical security, employee and contractor
                                                               badges, lock and key services, site guard services, and a security operations center.

                                                               The FCC Wireless Telecommunication Bureau Auctions Automation Branch also has one
                                                               staff-member responsible for reviewing security on the Auction general support
                                                               system and on all Auctions related major application. This staff person is
                                                               independent of the FCC CSO. The Auctions Operations Branch has in place a contract with
                                                               a third party responsible for outsourced, off-hours intrusion detection within
                                                                the Auctions general support system.
B.7. Identification of agency's critical operations and assets (both national critical operations and assets and mission critical) and
the interdependencies and interrelationships of those operations and assets.
a. Has the agency fully identified its critical operations and assets, including their
interdependencies and interrelationships?                                                       Yes                    X No
b. If yes, describe the steps the agency has taken as a result of the review.                   The FCC CSO has performed a FISMA
                                                                                                self-assessment of the ITC in order to
                                                                                                identify all critical operations and assets.




c. If no, please explain why.
B.8. How does the agency head ensure that the agency, including all components, has documented procedures for reporting
security incidents and sharing information regarding common vulnerabilities?

The FCC developed a Computer Incident Response Guide that contains specific response instructions, a standardized form for reporting
incidents, and guidance for reporting outside of the agency. The report form used in the guide was modeled after the FedCIRC and FBI-
NIPC formats. This form includes a section for sharing information outside of the agency.

The FCC has also formed a Computer Incident Response Team (CIRT). The team's focal point is the mitigation of impact from computer
related incidents at the Commission. The team is comprised of technical experts in the fields of personal computing, network design and
functionality, telecommunications, application development and management, and security and investingations. The CIRT is broken into 4
sub-teams comprised of individuals from the Applications Integrations Group (AIG), the Network Development Group (NDG), the Operations
Group (OG), and the Auctions Operational Branch (Auctions).


                                                                                  The CSO serves as the principal contact for the FCC
                                                                                  CIRT. To support information sharing, the CSO reports
                                                                                  to, and works closely with, the CIO, the Federal
                                                                                  Computer Incident Response Capability (FedCIRC)
                                                                                  managed by the GSA, the FBI - National Infrastructure
a. Identify and describe the procedures for external reporting to law             Protection Center (FBI - NIPC), and the Computer
enforcement authorities and to the Federal Computer Incident Response             Emergency Response Team (CERT) at Carnegie Melon
Center (FedCIRC).                                                                 University, as well as others.
b. Total number of agency components or bureaus.                                  17
c. Number of agency components with incident handling and response
capability.                                                                       3
d. Number of agency components that report to FedCIRC.                            1
e. Does the agency and its major components share incident information
with FedCIRC in a timely manner consistent with FedCIRC and OMB
guidance?                                                                Yes
f. What is the required average time to report to the agency and FedCIRC
following an incident?                                                   24 Hours
g. How does the agency, including the programs within major components, The FCC uses custom scripts, developed by the
confirm that patches have been tested and installed in a timely manner?  Application Integrations Group (AIG), to ensure that all
                                                                         systems are using the most current and up-to-date
                                                                         patches. The level of system patching is also reviewed
                                                                         for each major application and general support system
                                                                         during the Security Test and Evaluation (ST&E) portion
                                                                         of the system's Certification and Accreditation (C&A)
                                                                         examination.
h. Is the agency a member of the Patch Authentication and Distribution
Capability operated by FedCIRC?                                                   Yes                        No            X

i. If yes, how many active users does the agency have for this service?           N/A
j. Has the agency developed and complied with specific configuration
requirements that meet their own needs?                                           Yes           X            No
k. Do these configuration requirements address patching of security
vulnerabilities?                                                                  Yes           X            No
B.9. Identify by bureau, the number of incidents (e.g., successful and unsuccessful network penetrations, root or user account
compromises, denial of service attacks, website defacing attacks, malicious code and virus, probes and scans, password access)
reported and those reported to FedCIRC or law enforcement.
                                                                           Number of incidents reported externally to FedCIRC
Bureau Name            Number of incidents reported                        or law enforcement
Federal
Communications                                                             Three of the 27 incidents were reported to FedCIRC in
Commission             A total of 27 incidents were reports in FY 2003.    FY 2003.
C.1. Have agency program officials and the agency CIO: 1) assessed the risk to operations and assets under their control; 2) determined the level of
security appropriate to protect such operations and assets; 3) maintained an up-to-date security plan (that is practiced throughout the life cycle) for each
system supporting the operations and assets under their control; and 4) tested and evaluated security controls and techniques? By each major agency
component and aggregated into an agency total, identify actual performance in FY03 according to the measures and in the format provided below for the
number and percentage of total systems.




                                                                                            Number of           Number of                              Number of
                                                                                            systems with        systems for                            systems for
                                                                Number of                   security control    which security                         which
                                           Number of systems systems that Number of costs                       controls have      Number of           contingency
                                           assessed for risk    have an up- systems         integrated into     been tested        systems with a      plans have
                                           and assigned a level to-date IT    certified and the life cycle of   and evaluated      contingency         been tested
                             Total         or risk              security plan accredited the system             in the last year   plan *              *
                             Number of No. of            % of
Bureau Name                  Systems   Systems         Systems    No.     %     No.       %     No.    %          No.      %        No.       %         No.       %
Federal Communications
Commission                           19           10        53%     19 100%           8   42%     19   100%         10     53%            1       5%          1   5%
Agency Total                          19          10        53%     19 100%           8   42%     19   100%         10     53%            1       5%          1   5%
* - Denotes the FCC Auctions COOP, which only covers the Automated Auctions System (AAS).
C.2. Identify whether the agency CIO has adequately maintained an agency-wide IT security
program and ensured the effective implementation of the program and evaluated the
performance of major agency components.
Has the agency CIO maintained an        Yes, FCC Directive FCCINST 1479.2 serves as the
agency-wide IT security program? Y/N overall FCC-wide IT Security Program. This plan has
                                        been approved by the FCC CIO and has been given a
                                        5 year lifespan. The plan will expire in October 2006.


Did the CIO evaluate the performance of Yes
all agency bureaus/components? Y/N

How does the agency CIO ensure that       The FCC CSO has performed an review of the FCC
bureaus comply with the agency-wide IT    using the NIST Self-Assessment Guide.
security program?
Has the agency CIO appointed a senior     An FCC CSO and Deputy CSO have been appointed
agency information security officer per   by the FCC CIO.
the requirements in FISMA?

Do agency POA&Ms account for all          Yes
known agency security weaknesses
including all components?
C.3. Has the agency CIO ensured security training and awareness of all agency employees, including contractors and those employees with
significant IT security responsibilities?

                                                                  Agency employees with
                                            Total number of       significant security                                                Total costs
Total number    Agency employees that       agency employees      responsibilities that                                               for
of agency       received IT security        with significant IT   received specialized                                                providing
employees in    training in FY03            security              training                                                            training in
FY03            Number       Percentage     responsibilities      Number        Percentage   Briefly describe training provided       FY03


                                                                                             The FCC ITC and the CSP provide
                                                                                             initial security awareness for general
                                                                                             and detailed security related topics.
                                                                                             The CSP also develops and teaches
                                                                                             quarterly IT security briefs on topics
                                                                                             relevant to the FCC. In addition, the
                                                                                             CSP develops IT security notices and
                                                                                             bulletins, which are posted on the FCC
         2582         2582           100%                    64            56            88% Intranet site.                               $26,000



                                                                                                                                      .
C.4. Has the agency CIO fully integrated security into the agency’s capital planning and investment control process? Were IT security requirements and
costs reported on every FY05 business case (as well as in the exhibit 53) submitted by the agency to OMB?


                                                     Did the agency program official       Did the agency CIO plan and
                              Number of business     plan and budget for IT security       budget for IT security and             Are IT security costs reported in
                              cases submitted to     and integrate security into all of    integrate security into all of their   the agency's exhibit 53 for each
Bureau Name                   OMB in FY05            their business cases? Y/N             business cases? Y/N                    IT investment? Y/N


                                                                                           Yes, a percentage of the funding       Yes, a percentage of the funding
                                                     Yes, the total dollar amount for IT   dedicated to IT security for each      dedicated to IT security for each
Federal Communications                               security is noted in each business    function is denoted in each business   function is denoted in the overall
Commission                               6           case.                                 case.                                  agency-wide OMB 53.
Quarterly POA&M Updated Information                                                                            Programs   Systems
a. Total number of weaknesses identified at the start of the quarter.                                          N/A*       N/A*
b. Number of weaknesses for which corrective action was completed on time (including testing) by the end of the
quarter.                                                                                                        N/A*      N/A*
c. Number of weaknesses for which corrective action is ongoing and is on track to complete as originally
scheduled.                                                                                                     N/A*       N/A*
d. Number of weaknesses for which corrective action has been delayed including a brief explanation for the
delay.                                                                                                         N/A*       N/A*

e. Number of new weaknesses discovered following the last POA&M update and a brief description of how they
were identified (e.g., agency review, IG evaluation, etc.).                                                    N/A*       N/A*
* - FISMA Guidance provide by OMB does not require agency OIGs to complete this section
                                              Quarterly IT Security Performance Measures Update


                                                                                                  Number of
                                                                                                  systems for
                                                                                  Number of       which
                                    Number of                                     systems with security                         Number of
                                    systems          Number of                    security        controls have                 systems for
                                    assessed for     systems that Number of control costs been tested             Number of     which
                                    risk and         have an up-to- systems       integrated into and             systems with contingency
                                    assigned a level date IT        certified and the life cycle evaluated in     a contingency plans have
                         Total      or risk          security plan accredited of the system the last year         plan          been tested
                         Number
                         of          No. of    % of
Bureau Name              Systems    Systems   Systems   No.    %      No.       %     No.    %      No.    %       No.       %     No.       %
Federal Communications
Commission                     19        10       53%     19   100%         8   42%     19   100%     10   53%           5   26%         0   0%
Agency Total                   19        10       53%     19   100%         8   42%     19   100%     10   53%           5   26%         0   0%
